No. 20-1029
CITY OF AUSTIN, TEXAS,
Petitioner,
V.

REAGAN NATIONAL ADVERTISING OF TEXAS,
INCORPORATED, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify
that Joint Amicus Brief of Chambers of Commerce,
Business Leagues, Environmental Organizations,
and On-Premise Sign Associations in Support of
Petitioner contains 3,732 words, excluding the parts
of the document that are exempted by Supreme Court
Rule 33.1(d), as needed.
/s/ Cooke Kelsey
Counsel of Record

